Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Medicare Reimbursement for
     Hospital Beds in the Home

        Payment Methodology




                   JUNE GIBBS BROWN
                    Inspector General

                     NOVEMBER 1998
                      OEI-07-96-00222
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City Regional Office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                               HEADQUARTERS

Perry A. Seaton, Team/Project Leader                 Lisa A. Foley, Program Specialist
Tim Dold, Team Leader                                Stuart Wright, Associate Director
                                                     Barbara Tedesco, Mathematical Statistician




  To obtain copies of this report, please call the Kansas City Regional Office at 816/426-3697.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To compare Medicare's rental reimbursement methodology and utilization patterns for hospital
beds used in the home to policies utilized by other Federal, State, private insurance companies,
and managed care organizations.

BACKGROUND

The Medicare Supplemental Medical Insurance program pays for the rental or purchase of
medically necessary Durable Medical Equipment (DME) used in a beneficiary’s home when
determined by a physician to be medically required. Suppliers receive monthly reimbursement
from the Medicare Durable Medical Equipment Regional Carriers based upon a fee schedule.
This schedule is limited by the Health Care Financing Administration’s (HCFA) established
national payment ceilings, and is adjusted annually for inflation based upon the Consumer Price
Index. Certain categories of DME, including hospital beds, are reimbursed as “capped rental”
items. The fee schedules reimburse a supplier:

       C       10 percent of the allowed purchase price for new equipment for each of the first 3
               months of rental; and
       C       7.5 percent of the allowed purchase price for new equipment for each of the
               remaining months for which Medicare will make payment.

We surveyed sampled entities from Medicare risk managed care organizations, Medicaid State
Agencies, the top 50 health insurance companies as ranked by policies in force, and a listing of
companies providing national and local coverage in the Federal Employees Health Benefits
program. Overall, we achieved an 82 percent response rate.

This is one of two reports examining Medicare’s policies and reimbursement for hospital bed
equipment. A companion report, “Medicare Reimbursement for Hospital Beds in the Home:
Prices” OEI-07-96-00221, compares the reasonableness of Medicare’s reimbursement rates for
this equipment to those of other medical insurance payers.

FINDINGS

Only Medicare Provides Suppliers Enhanced Reimbursement for Initial Rental Months

Of the respondents surveyed, Medicare was the only insurer that allows a higher rate of
reimbursement for rental periods lasting less than 4 months (10 percent of the allowed charge for
purchase as compared to 7.5 percent of the allowed charge for purchase for rentals lasting from
4 to 15 months duration).




                                         )))))))))))
                                              i
Almost Half of Medicare Beneficiaries Only Rent Beds During Enhanced Payment Months.

Claims information from January 1995 - December 1996 established that 47 percent of the
Medicare beneficiaries rented beds for 3 months or less, two-thirds rented for 7 months or less,
and only 12 percent completed 15 months of rental. The relative short rental periods for
Medicare patients means that the enhanced rate, which the program pays for the first 3 months, is
an important reason Medicare pays more for hospital bed rental than other payers.

Medicare and Most Other Payers Cap the Duration of the Rental Period and the Amount
Paid

Medicare caps rental reimbursement at 15 rental months. This policy is comparable to industry
practices that limit both the duration and amount of rental reimbursement for hospital beds.
Of the 74 respondents, 72 (97 percent) pay for the rental of hospital beds used in the home, with
56 (75.7 percent) capping the duration of rental.

RECOMMENDATION

Eliminate Enhanced Rates for the First 3 Rental Months

The HCFA should seek legislation to eliminate the 2.5 percent enhanced rate for the first
3 months of rental. We estimate Medicare would annually save approximately $15 million.
Projected over 5 years, Medicare would save over $74 million.

We realize that legislative action could take some time. Therefore, in the interim, we recommend
that HCFA use the authority under the Balanced Budget Act of 1997 to reduce rates overall.
This action would make Medicare’s method of payment comparable to methods used by other
payers. This is further explained in the companion report. Overall, we believe that a combination
of both approaches would be best. However, the savings would not be additive.

The savings estimates are based on CY 1996 payments and are not indexed for inflation.

AGENCY COMMENTS

The HCFA concurs with the intent of our recommendation. However, it is deferring a decision
on this matter pending receipt of information on hospital bed pricing. At that time, HCFA will
assess whether the approach presented in our report is appropriate or whether an alternative
pricing method is preferable. Appendix D contains the complete text of these comments. We
remain available to provide technical assistance to HCFA on this issue.




                                         )))))))))))
                                              ii
                              TABLE OF CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Only Medicare Provides Enhanced Reimbursement for Initial Rental Months . . . . . . . . . 5


          Almost Half of Beneficiaries Only Rent Beds During Enhanced Payment Months . . . . . . 5


          Medicare and Most Other Insurers’ Cap the Duration and Amount of Rental . . . . . . . . . 5


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


APPENDICES

 A: Entities Included In the Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


 B: Sample Response Rate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


 C: Calculation of Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1


 D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1

                            INTRODUCTION

PURPOSE

To compare Medicare's rental reimbursement methodology and utilization patterns for hospital
beds used in the home to policies utilized by other Federal, State, private insurance companies,
and managed care organizations.

BACKGROUND

The Medicare Supplemental Medical Insurance program pays for the rental or purchase of
medically necessary Durable Medical Equipment (DME) used in a beneficiary’s home when
determined by a physician to be medically required. Certain categories of DME, including
hospital beds, are reimbursed as “capped rental” items.

Medicare Reimbursement Methodology for DME

Medicare Part B pays for the rental or purchase of durable medical equipment (DME), used in the
patient's home when determined by a physician to be medically required. There are six payment
categories:

       C       Inexpensive or other routinely purchased equipment;

       C       Items requiring frequent and substantial servicing;

       C       Customized items;

       C       Other prosthetic and orthotic devices;

       C       Oxygen and oxygen equipment; and

       C       Capped rental items.


Medicare's Policies for Capped Rental DME

Capped rental items include hospital beds, wheelchairs, support surfaces and other pieces of
DME. Suppliers receive monthly reimbursement from the Medicare Durable Medical Equipment
Regional Carriers (DMERC) based upon a fee schedule. This schedule is limited by the Health
Care Financing Administration’s (HCFA) established national payment ceilings, and is adjusted
annually for inflation based upon the Consumer Price Index. The fee schedules reimburse a
supplier:

       C       10 percent of the allowed purchase price for new equipment for each of the first 3
               months of rental; and
       C       7.5 percent of the allowed purchase price for new equipment for each of the
               remaining months for which Medicare will make payment.

Under Medicare capped rental DME rules, a hospital bed is initially furnished to a beneficiary as a
rental item. The beneficiary is offered the option of purchasing a new or used bed at the


                                         )))))))))))
                                              1
10th rental month, which is effective with the 14th month. If the beneficiary uses a purchased bed
for its entire useful life, the item can be replaced and Medicare will reimburse the supplier for the
replacement equipment. Medicare currently recognizes a 5 year useful life for hospital beds.

If the beneficiary elects to continue to rent the bed, Medicare payments will end upon completion
of the 15th month. After rental payments end, Medicare will pay for necessary servicing and
maintenance of capped rental equipment once every 6 months (which cannot exceed the charge
for a 1 month rental). When the hospital bed is no longer needed by the beneficiary (due to death
or medical improvement) the supplier is free to reclaim the used item for rental or sale to other
clients.

Medicare's Payment for Capped Rental DME

Medicare allowed charges for all capped rental items totaled $886 million in 1995. There are
16 codes for hospital beds and Medicare's allowed charges for these codes totaled more than $287
million in 1995.

Table 1 is a summary of the Medicare fee schedule. Medicare allows 105 percent for a purchased
item or 120 percent if rented through the 15th month.

                                                 Table 1
                   Medicare Reimbursement Schedule for Capped Rental Items
          Rental Month               Percent of Fee Schedule                Cumulative Percent
                  1                             10.0%                              10.0%
                  2                             10.0%                              20.0%
                  3                             10.0%                              30.0%
                  4                              7.5%                              37.5%
                  5                              7.5%                              45.0%
                  6                              7.5%                              52.5%
                  7                              7.5%                              60.0%
                  8                              7.5%                              67.5%
                  9                              7.5%                              75.0%
                 10                              7.5%                              82.5%
                 11                              7.5%                              90.0%
                 12                              7.5%                              97.5%
                 13 1                            7.5%                            105.0%
                 14                              7.5%                            112.5%
                    2
                 15                              7.5%                            120.0%
      1
          If elected, the purchase option is effective with the 14th rental month.
      2
          Rental payments terminate upon completion of the 15th rental month.

In 1996 the DMERC allowed charges of over $272 million for the four categories of hospital beds
included in this study. Semi-electric beds (code E0260) comprised 86 percent of this total while
total electric beds accounted for less than one-half of one percent (refer to Table 2).



                                           )))))))))))
                                                2
                                            Table 2

                              Allowed Charges for Hospital Beds

                             January 1, 1996 - December 31, 1996 1

 Manual Hospital Bed (E0250)
                                                        $7,085,989
 Manual Adjustable Hospital Bed (E0255)
                                            $30,720,446
 Semi-Electric Hospital Bed (E0260)
                                               $233,607,390
 Total Electric Hospital Bed (E0265)
                                                $1,084,068
 Total:                                                                            $272,497,893
 1
     Source: Statistical Analysis DMERC (Palmetto Government Benefits Administrators)

Previous Office of Inspector General (OIG) Study

A May 1993 OIG report, “Review of Medicare Part B Reimbursement of Hospital Beds,”
A-06-91-00080, found that Medicare reimbursement rates for “capped rental” hospital beds were
excessive because HCFA failed to take into account the useful life of the bed and how many times
it can be rented. The OIG estimated Medicare savings of $6.2 to $7.8 million in just one State.
HCFA did not accept OIG's recommendations to change the way they reimburse for hospital beds
in part because the study was limited to rentals in only one State.

METHODOLOGY

We researched the Federal laws, regulations and HCFA policies that cover the establishment,
reimbursement, and purchase options for capped rental hospital beds. We also reviewed various
private and governmental entities’ reimbursement methodologies for these items.

We obtained listings of Medicare risk managed care organizations (MCOs), Medicaid State
agencies, the top 50 private health insurance companies in the United States as ranked by number
of policies in force, and a listing of the companies providing national and local coverage in the
Federal Employees Health Benefits Program. We selected a sample from each of these groups to
request completion of a mailed survey questionnaire (for MCOs we included in the universe only
those with 450 or more members). For the sampled private insurance companies which have
multiple components, we surveyed their private, MCO, and government insurance divisions. In
total, we contacted 90 entities.

As a means to obtain direct information and validate it, we selected a sub-sample from each of the
above organizations for on-site visits. The criteria for selection was based upon size, location,
and proximity to other on-site contacts for economy of travel. In addition, we sent surveys to the
Department of Veterans Affairs, the Indian Health Service, and the Department of Defense Tri-
Care program , formerly the Office of Civilian Health and Medical Program of the Uniform
Services (CHAMPUS).


                                         )))))))))))
                                              3
As part of all surveys, we requested the entities' written procedures and policies for
reimbursement methods, schedules, and rates for the following types of new and used hospital
beds:

       C       Manual Hospital Bed                    (HCPCS Code E0250)
       C       Manual Adjustable Hospital Bed         (HCPCS Code E0255)
       C       Semi-Electric Hospital Bed             (HCPCS Code E0260)
       C       Total Electric Hospital Bed            (HCPCS Code E0265)

We inquired if these purchasers of hospital beds maintain on-going data or have conducted studies
to address supplier costs (i.e., equipment acquisition, delivery, setup, patient education,
maintenance, tear down, pick up, sanitation, billing, supplier profit and life of the product). We
also asked if they are utilizing competitive bidding for either the rental or purchase of these items.
Any unclear responses were clarified by telephone and follow up contacts were made to non-
responders. Overall we achieved a 82 percent response rate. Appendix A breaks out the various
entities surveyed and identifies responders by sample category. It should be noted that since all
responders did not provide answers to each question on the survey instrument, we reported our
data based on the percentage of responders who answered the question. Appendix B lists the
response rates for each of the sample categories.

We queried the Medicare DMERC to validate particular aspects of claims processing for rented
hospital beds. We also requested information on payment methodology for capped as compared
to non-capped items.

We utilized a 1 percent sample of HCFA's National Claims History File for January 1994 through
March 1996 to obtain information on beneficiary rental patterns for the four procedure codes
listed in Table 2 (E0250, E0255, E0260, and E0265). The Statistical Analysis Durable Medical
Equipment Regional Carrier (SADMERC) updated this information for rentals commencing in
1995.

This is a companion report to “Medicare Reimbursement for Hospital Beds in the Home:
Prices” OEI-07-96-00221, which compares the reasonableness of Medicare’s reimbursement for
rental of hospital beds to other Federal, State, private insurance companies and managed care
organizations.

We conducted our review in accordance with the Quality Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                          )))))))))))
                                               4
                                     FINDINGS


ONLY MEDICARE PROVIDES SUPPLIERS ENHANCED REIMBURSEMENT FOR
INITIAL RENTAL MONTHS

Medicare is the only insurer that allows a higher rate of reimbursement for rental periods lasting
less than 4 months (10 percent of the allowed charge for purchase as compared to 7.5 percent of
the allowed charge for purchase for rentals lasting from 4 to 15 months duration). When we
compared Medicare’s rental reimbursement for the first 3 months of rental to the rates paid by
other insurers. We found that Medicare’s rates for months 1 - 3 were from 18 percent to
38 percent higher

ALMOST HALF OF MEDICARE BENEFICIARIES ONLY RENT BEDS DURING
ENHANCED PAYMENT MONTHS.

We analyzed claims information from 1994 through 1995 and determined that 47 percent of the
Medicare beneficiaries rent beds for 3 months or less, two-thirds rent beds for 8 months or less,
and only 16 percent complete 15 months of rental. 1

 The chart on the following page depicts the declining duration of rental for the four hospital beds
surveyed in this study. As is noted, the majority of the rentals are semi-electric, with very few
total-electric beds rented after the second month.

MEDICARE AND MOST OTHER PAYERS CAP THE DURATION OF THE RENTAL
PERIOD AND THE AMOUNT PAID

Three-fourths of the Payers Cap the Duration of the Rental Period

Medicare caps the duration of rental at 15 rental months. Total reimbursement is limited to
120 percent of the purchase price of the bed. This method of payment is comparable to industry
practices that limit both the duration and amount of rental reimbursement for hospital beds.

Of the 74 respondents, 72 (97 percent) pay for the rental of hospital beds used in the home, with
56 (75.7 percent) capping the duration of rental. Over half (38 of 74 respondents) limit rental
payments to 12 months or less. Sixty percent (44 respondents) limit the aggregate rental
payments for each rental period to the purchase price of the item.




       1
           The SADMERC updated this information for claims with dates of service from January
           1995 through December 1996 and found that the duration of rental remains virtually
           unchanged from the 1994/1995 data with half of the Medicare beneficiaries rented beds
           for 4 months or less, two-thirds rented for 7 months or less, and only 12 percent
           completed 15 months of rental.

                                          )))))))))))
                                               5
Duration of Monthly Hospital Bed Rental

       by Medicare Beneficiaries

   (January 1995 - December 1996)





            )))))))))))
                 6
                         RECOMMENDATION

Eliminate Enhanced Rates for the First 3 Rental Months

The HCFA should seek legislation to eliminate the 2.5 percent enhanced rate for the first
3 months of rental. We estimate Medicare would annually save approximately $15 million.
Projected over 5 years, Medicare would save over $74 million. 2

We realize that legislative action could take some time. Therefore, in the interim, we recommend
that HCFA use the authority under the Balanced Budget Act of 1997 to reduce rates overall.
This action would make Medicare’s method of payment comparable to methods used by other
payers. This is further explained in the companion report. Overall, we believe that a combination
of both approaches would be best. However, the savings would not be additive.

Our calculations for these savings are described in detail in Appendix C.

AGENCY COMMENTS

The HCFA concurs with the intent of our recommendation. However, it is deferring a decision
on this matter pending receipt of information on hospital bed pricing. At that time, HCFA will
assess whether the approach presented in our report is appropriate or whether an alternative
pricing method is preferable. Appendix D contains the complete text of these comments. We
remain available to provide technical assistance to HCFA on this issue.




       2	
            These savings estimates are based on calendar year 1996 payments and are not indexed
            for inflation.

                                          )))))))))))
                                               7
                                          APPENDIX A


              ENTITIES INCLUDED IN THE SAMPLE

                                  PRIVATE INDEMNITY COMPANIES


Name                                                                  State      Response Received
Aetna Life and Casualty Co                                             CT                  Y
Blue Cross & Blue Shield of Florida                                    FL                  Y
Blue Cross & Blue Shield of Michigan                                   MI                  Y
Blue Cross & Blue Shield of Texas, Inc.                                TX                  Y
Empire Blue Cross Blue Shield                                          NY                  N
Metropolitan Life Insurance Company                                    FL     Dropped (sold to United
                                                                              Health Care)
Mutual of Omaha                                                       NE                   Y
New York Life Insurance Company                                       NE                   Y
Prudential Insurance Company of America                               PA                   N
United Health Care (formerly Travelers)                               CT                   Y
Total Companies: 10                                                  Total Responders: 7

                                     MEDICAID STATE AGENCIES

Name                                                                  State        Response Received
                                              1
Arizona Health Care Cost Containment System                            AZ                  Y2
                               1

Department of Human Services                                           HI                  Y
Department of Human Services
                                          ID                  Y
Department of Health & Mental Hygiene
                                 MD                  Y
Division of Medicaid
                                                  MS                  Y
Department of Human Services
                                          ND                  Y
New Mexico Human Services Department
                                  NM                  Y
Department of Social Services
                                         NY                  Y
Department of Human Services 1
                                        OH                  Y
Department of Human Services
                                          WI                  Y
Total States: 10
                                                    Total Responders: 10
1
  Medicaid § 1115 Waiver State

2
  The Arizona Health Care Cost Containment System (the Medicaid State Agency) has seven subcontractors
who provide Medicaid Coverage. Ventana Health Systems, provided the only response. This contractor
furnishes Medicaid health care to 7 of 15 Arizona Counties.




                                           )))))))))))
                                               A-1
                FEDERAL EMPLOYEE HEALTH BENEFITS PROGRAM--LOCAL PLANS


Name                                                                           State     Response Received
Foundation Health                                                               CA                 Y
CIGNA Healthcare of Colorado                                                    CO                 N
Health New England                                                              CT                 N
Suburban Health Plan, Inc.                                                      CT                 Y
Exclusive Health Care                                                           IA                 Y
BCI HMO, Inc                                                                    IL                 Y
Personal Care Blue Shield HMO                                                   IL                 Y
Advantage Care, Inc.                                                            KY     Dropped--No longer
                                                                                       participating in FEHB
                                                                                       Plans.
HMO Maine                                                                      ME                  Y
AETNA Health Plans of the Mid-Atlantic States                                  MD                  Y
Health Alliance                                                                MI                  N
Prudential Health Care HMO                                                     MO                  N
United Health Care Select                                                      MO                  Y
Exclusive Health Care                                                          NE                  Y
FHP New Mexico                                                                 NM                  Y
Presbyterian Health Plan                                                       NM                  N
GHI Health Plan                                                                NY                  Y
Healthsource HMO of New York                                                   NY                  Y
Independent Health Association                                                 NY                  Y
Personal Care Plan of North Carolina                                           NC                  Y
PHP, Inc.                                                                      NC                  Y
HMO Health Ohio                                                                OH      Dropped--No longer
                                                                                       participating in FEHB
                                                                                       Plans.
Prudential Northern Ohio                                                       OH                  Y
Pacific Care of Oregon                                                         OR                  N
United Health Plans of New England                                              RI                 Y
Harris Methodist                                                               TX                  Y
HMO Blue                                                                       TX                  Y
Total Companies Contacted: 25 3                                               Total Responders: 19

3
    Total does not include the two companies that no longer participate in the Federal Employees Health
    Benefits Program.




                                                )))))))))))
                                                    A-2
           FEDERAL EMPLOYEE HEALTH BENEFITS PROGRAM--NATIONAL PLANS


Name                                                          Response Received
Alliance
                                                             Y
American Postal Workers Union (APWU)
                                 Y
Blue Cross & Blue Shield
                                             Y
Government Employees Hospital Association (GEHA)
                     Y
Mail Handlers
                                                        Y
National Association of Letter Carriers (NALC)
                       Y
Postmasters
                                                          Y
Association Benefit Plan
                                             Y
BACE
                                                                 Y
Foreign Service
                                                      N
Panama Canal Area
                                                    Y
Rural Carrier Benefit Plan
                                           Y
Special Agents’ Mutual Benefit Association (SAMBA)
                   Y
Secret Service
                                                       N
Total Companies: 14                                      Total Responders: 12




                                           )))))))))))
                                               A-3
                   MEDICARE RISK HEALTH MAINTENANCE ORGANIZATIONS


Name                                                         State      Response Received
Health Partners of Alabama
                                   AL                 Y
Blue Cross of Arizona
                                        AZ                 Y
Blue Cross of California
                                     CA                 N
FHP, Inc.
                                                    CA                 N
Foundation Health, A California Plan
                         CA                 Y
Kaiser Foundation HP, Inc.
                                   CA                 Y
Kaiser Foundation HP of Colorado
                             CO                 Y
Kaiser Foundation HP of NY
                                   CT                 Y
AV-Med Health Plan, Inc.
                                     FL                 Y
U.S. Healthcare Delaware
                                     DL                 Y
Health Alliance Plan of Michigan
                             MI                 N
Partners National Health Plans of North Carolina, Inc.        NC                 Y
First Option Health Plan of New Jersey, Inc.
                 NJ                 Y
CIGNA Healthcare of New York
                                 NY                 Y
Independent Health Plan, Inc
                                 NY                 N
NYLCARE Health Plans, Inc.
                                   NY                 Y
Family Health Plan, Inc.
                                     OH                 Y
Community Care HMO, Inc.
                                     OK                 Y
Kaiser Foundation of the Northwest
                           OR                 Y
Geisinger Health Plan
                                        PA                 Y
Keystone Health Plan Central, Inc.
                           PA                 Y
Qualmed Plans for Health, Inc.
                               PA                 Y
U.S. Healthcare, Inc. - Delaware 
                            PA                 Y
U.S. Healthcare Systems of Pennsylvania
                      PA                 Y
IHC Care, Inc.
                                               UT                 Y
Total Companies: 25                                         Total Responders: 21




                                              )))))))))))
                                                  A-4
              OTHER FEDERAL GOVERNMENT HEALTH INSURANCE PROGRAMS

Name                                                                             Response Received
Indian Health Service (Department of Health & Human Services                             Y
Tri-Care (Department of Defense) 4                                                       Y
Railroad Retirement Board (RRB)                                                       Dropped 5
Department of Veteran’s Affairs (VA)                                                     Y
Total Government Programs in Sample: 6 4                                    Total Responders: 5 4

4	
        Tri-Care (formerly CHAMPUS) contracts with several insurance companies to administer the rate and
        method of reimbursement for claims filed under their program. Three of these contractors responded
        to our survey. Each was coded as a separate response, since payment rates are State specific.
        Comparisons were performed against Medicare’s rates for those States.
5	
        We dropped the Railroad Retirement Board (RRB) from the sample. Contact with them confirmed that
        retirees’ health claims are covered by Medicare and are processed by the DME Regional Carriers
        (DMERC). Therefore, HCFA policies for payment are followed and the reimbursement rates are the
        same as for non RRB Medicare clients.




                                            )))))))))))
                                                A-5
                                APPENDIX B


                        SAMPLE RESPONSE RATE

                                       Number in           Number
Type of Health Insurer                  Sample            Responding       Response Rate
Private Indemnity Insurance                10                  7                70%
Medicaid State Agencies                    10                 101              100%1
Federal Employee Local
Insurance Plans                            25                  19               76%
Federal Employee National
Insurance Plans                            14                  12               86%
Medicare Risk Health
Maintenance Plans                          25                  21               84%
Other Government Health
Insurers                                    6                  5                83%
Total:                                     90                  74               82%
1
    The Arizona Health Care Cost Containment System (the Medicaid State Agency) has
    seven subcontractors who provide Medicaid Coverage. Ventana Health Systems,
    provided the only response. This contractor furnishes Medicaid health care to
    7 of 15 Arizona Counties.




                                       )))))))))))
                                           B-1
    APPENDIX C


CALCULATION OF SAVINGS





       )))))))))))
           C - 1

                                       Breakout of DMERC 1996 Payments for the Hospital Bed Codes Surveyed

                                           Total Payments for        Total Payments for                    Total Payments for               Total Payments
                           DMERC       Rentals of only 1 Month Rentals of Only 2 Months               Rentals of Only 3 Months                   Rentals of
Procedure Code           Payments 1996                Duration                 Duration                               Duration      4 - 15 Months Duration
E0250                       $7,085,989              $2,437,580                 $836,147                               $559,793                  $3,252,469
E0255                      $30,720,446             $11,428,006               $3,102,765                             $2,150,431                 $14,039,244
E0260                     $233,607,390             $80,828,157              $28,266,494                            $18,454,984               $106,057,755
E0265                       $1,084,068                $576,724                 $106,239                                $82,389                    $318,716
Total                     $272,497,893             $95,270,467              $32,311,645                            $21,247,597               $123,668,184

                                       Estimated Savings if Rental Reimbursement for Months 1 - 3 were Reduced
                                           From 10 Percent of Purchase Price to 7.5 Percent of Purchase Price

                          Rentals of only              Rentals of only              Rentals of only                   Rentals of
                     1 Month Duration--         2 Months Duration--           3 Months Duration--        4 - 15 Months Duration
Procedure Code                   Savings 1                   Savings 2                    Savings 3                     Savings 4           Total Savings 5
E0250                             $60,940                     $41,807                      $41,984                     $243,935                  $388,666
E0255                           $285,700                     $155,138                     $161,282                   $1,052,943                $1,655,064
E0260                         $2,020,704                   $1,413,325                   $1,384,124                   $7,954,332               $12,772,484
E0265                             $14,418                      $5,312                       $6,179                       $23,904                   $49,813
Total                         $2,381,762                   $1,615,582                   $1,593,569                   $9,275,114                $14,866,027
1
  The amount in this column reflect the 2.5 percent savings for beneficiaries who rented these DME items for only 1 month.
2
  The amount in this column reflect the 5 percent savings for beneficiaries who rented these DME items for only 2 months.
3
  The amount in this column reflect the 7.5 percent savings for beneficiaries who rented these DME items for only 3 months.
4
  The amount in this column reflect the 7.5 percent savings for beneficiaries who rented these DME items from 4 - 15 months.
5
  These savings estimates are based on calendar year 1996 payments and are not indexed for inflation.




                                                                       )))))))))))
                                                                             C-2
APPENDIX D

AGENCY COMMENTS





    )))))))))))
        D - 1

)))))))))))
    D - 2

)))))))))))
    D - 3

D - 4

